Docket No. 20-497

IN THE SUPREME COURT OF THE UNITED STATES
i -

/
/

\

t

f

JAMAL A. AZEEZ

VS

Petitioner

STATE OF WEST VIRGINIA
Respondent

ON APETITION FOR WRIT OF CERTIORARI
TO THE WEST VIRGINIA SUPREME COURT OF APPEALS

PETITION FOR REHEARING
AZEEZ BELIEVES THAT EVEN THOUGH THIS COURT IS
PREDOMINANTLY CONSERVATIVE. HE STILL HAS A CHANGE TO
PROVE HE IS FACTUALLY INNOCENT. ESPECIALLY IF THIS
PLEADING IS REVIEWED BY JUSTICES CLARENCE THOMAS AND
BRETT KAVANAUGH—WHO WERE BOTH FALSELY ACCUSED OF
SEXUAL ASSAULT. AN EN BANC REVIEW IS NONETHELESS
REQUESTED.

Jamal A. Azeez, Paralegal pro se.
138-19 Lloyd Rd.
Jamaica, NY 11435
516-476-1779
Jdeen 18@vahoo.com

RECEIVED
DEC 3 0 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

0

GROUNDS FOR REHEARING
The Purpose Of This Pleading Is To Adequately Present
New Claims, In Bold Letters, Showing That:
(a)

In Addition To Prosecutorial And Police (Criminal)
Misconduct. Judicial Conspiracy To Convict. And To
Keep The Conviction Affirmed, Are Also Responsible For
Petitioner’s Failure To Prevail In His Pro Se Appeals.

(b)

Respondent’s Dispositive Rulings Repeatedly Ignored
Newly Discovered Evidences That Indisputably Prove
Petitioner’s Actual Innocence. And Disregarded Brady.
Strickland, and Batson Decisions Of This Court And Other
Appellate Courts.

(c)

Application Of The Change Of Law Under Mcauissin v.
Perkins (569 U.S. 383. 2013) Which Provides A Gateway
To Overcome Any Procedural Bar Such As AEDPA That
Previously Barred Review Of Cases Regarding Proven
‘Factual Innocence’...Will End Systemic Injustice The
Respondent Inflicted. Throughout The History of This Case

(d)

Petitioner States That Since His Facts Were “Fairly
Presented” As Required In Haines V. Kerner Proving That
He Was Wrongfully Arrested. Indicted. Convicted.
And Denied Relief, This Court Must Grant Writ Of
Certiorari.

(e)

With Such Cumulative And Sufficient Effects. And
Knowing That Eight (8) Brady Evidences Deliberately
Withheld. Including A Solid Alibi Scientific Report Which
Create ‘Exceptional CircumstanceThis Court Should
GRANT Certiorari.
i

ARGUMENTS.
1. Petitioner argues that he was criminally1 arrested
and indicted for a crime he did not commit, and
deliberately discriminated during jury selection.
The issue of False Arrest and Wrongful Indictment—and the
corresponding gross Prosecutorial and Police Misconduct in this case that
deemed "Harmful Error” regarding the Batson claim which reached national
attention and was published by The Associate Press (See Appendix M)—were
repeatedly ignored by the evasive Respondent and has not been
settled. Petitioner’s pro se papers were met with prejudicism and systemic
injustice by Judge Hutchison who took over the appeals after the death of the
trial Judge Thomas Canterbury. Both left an indelible stain of biasness and
conspiracy after they learned that Petitioner was ‘illegal in the country’: as
rumored by prosecutor Bruce Lazenby.
2. Azeez argues that Judge Canterbury conspired with
the Respondent to earn the conviction.
(a) He refused Azeez’s request to allow a former (sane) patient to testify
knowing that she denied a previous sex allegation (“Jamal was
fooling around with a patient”) found on an anonymous note left on
the Human Resource Manager's desk.
(b) He ignored Azeez’s Motion to have the woman undergo Psychiatric
Evaluation for competency—fully cognizant that she was “mentally
retarded”—and allowed Lazenby to introduce her with coached
testimony and to invoke jury sympathy. Motion still pending review.
(c) When Lazenby revealed, for the first time at bench conference, the
negative CIB report, Judge Canterbury did not ensure that the jury
was aware of the result; and at no time in the record the jury was
told that the entire rape kit was negative; and more importantly,
there’s absolutely no record of the alleged “stipulation of the resulf.

See Appendix 1 (Complaint/Warrant for Arrest)
2

(d) During voir dire examination, when Prosecutor Lazenby struck the
only black/colored juror based on alleged arrest history, Judge
Canterbury did not ask for verification to legitimize the strike—
knowing the Clerk would not have had a person with previous arrest
record selected for jury duty. Judge Canterbury conduct also
supports racial injustice.
(e) After reviewing the acid phosphatase results that scientifically
determined the woman had sexual intercourse at a time Petitioner
was not even around the hospital scene, Judge Canterbury
deliberately initiated a conference in his chambers and suggested
that the acid phosphatase be "omitted”—while he admitted the
result of "Sperm Cells" that were conducted from the same swab as
the add phosphatase. The jury heard and saw Dead Sperm Cells
Slides Cytology report, but not the Acid Phosphatase report.
(f) He refused to reverse the conviction when Dr. Slack concluded during
Omnibus Evidentiary Hearing that the woman did not engaged in
recent
sexual
intercourse;
and
all
findings
‘^onremarkable... normal’ even after several letters from Petitioner’s
habeas lawyer (Mr. Cleckley2) demanding a ruling, until Cleckley,
being impatient, forcefully authored a Dismissal Order without
Petitioner’s consent-—.a huge mistake.

3. Azeez argues that the appellate judge conspired
with the Respondent to sustain the conviction.
(a) After discovering many exculpatory evidences via several FOIA
requests to the Clerk’s Office; some of which were responsible for
2 Mr. Cleckley strongly believed he would have gotten better result in the WV Supreme Court where
he was appointed by Governor Caperton. Unfortunately, he had to step down from the case and
gave it to an ill-informed, inexperienced student attorney (Paul Cranston) he was interning. The
case was met with more prejudice by Chief Justice Workman who is a staunch advocate for
women's rights. She earned foe majority by proxy—an Administrative Order requiring foe two
judges (not Justices) "sitting on temporary assignment must concur with foe Chief Justice". In her
3-2 opinion, Justice Workman erroneously wrote, “Dr. Rctsheed testified that sperm cells were
found on slides prepared from the vaginal swab; however, the doctor could not testify, based on
the tests conducted, when exactly intercourse occurred with the victim Workman did NOT know
Judge Canterbury "omitted" this part of Dr. Rasheed's deposition from foe record.

3

the reversal of the Failure to Appear conviction, Petitioner filed a
“criminal complaint” with several law enforcement agencies. It
was intercepted by Hutchison who interpreted it as a ‘civil suit”
and told Petitioner at the conclusion of a hearing, “J am warning
you.... Do not come back to this court looking for documents
or filing complaints.... only a citizen can file complaints... a
prisoner cannot file a criminal complaint...”
(b) Hutchison punitively and retaliatorily applied the principles of
PLRA and “revoke 50 % of all good-time credit” earned in the
instant case although Petitioner had already discharged the 10year sentence.
Luckily, the Commissioner of Corrections
concluded that such rulings were erroneous and in violation of
PLRA, or else, Petitioner would have had to spend an additional
five (5) years behind bars for filing the criminal complaint
(regarding his conviction; not on conditions of confinement)
against Hutchison’s fellow law enforcement officials in his court.
(c) In his ruling on the first and ONLY Petition Motion for
Production of Grand Jury Minutes, Hutchison considered it “‘res
judicata
and an attempt to go on a fishing trip
trying to re-plow fields” when exposure outweighs any secrecy.
(d) A Motion to Preserve Slides to Conduct DNA Analyses was
denied. Due to stain and preservatives added to the slides,
Petitioner’s request employing RFLP method was rejected.
(e) As Petitioner’s FOIA requests were considered a “nuisance”,
Hutchison sent letters to the warden of the prison and indicated
that such conduct demonstrates Petitioner’s “failure to
rehabilitate”. As the Senior Paralegal of the prison, Petitioner
always used a logo (Scales of Justice ^
(as seen on the cover
page of this pleading) on his court documents, including the last
FOIA request to the Hutchison’s court. Suddenly, Petitioner was
issued a Disciplinary Violation by prison official for using3 the
logo, fired from his job, sentenced to 30 days solitary confinement,
transferred to Regional Jail, and had all of his ACTIVE legal files
(3 boxes) sent to his home in New York at his expense, while
prison regulations require storage of such files until solitary
confinement is completed.

3 . Petitioner has always used the scales of justice on his pleadings but was never prohibited or
punished for doing so until his last FOIA request to the Clerk of (Hutchison’s) Court.
4

(f) During a court hearing, Petitioner begged Hutchison for
permission to have the handcuff removed for accessing his court
papers he brought from the prison. Hutchison, bluntly replied,
“No. You cannot”. The prison guard was ‘shocked’ the way the
Judge treated Petitioner. Azeez DNA request was denied.
(g) After Federal Judge (Robert Maxwell NDWV) reversed the
Failure to Appear conviction. Petitioner file a Motion to have the
charges dismissed. During a hearing on Petitioner’s Civil Rights
law suit for compensation for Unjust Imprisonment, Hutchison
told Petitioner, “The conviction was not reversed. You just
got out of Jail”. How did Azeez got out? Broke out? Escape??

4. Under Mcauissin v. Perkins. 569 US (2013). the
(RBG) Court provides a “gateway” for review a case
regarding *actual innocence’ as Petitioner’s, to
overcome all nrocednral bars cited bv the
Respondent. Such change in law is ground for relief
In light of the Court’s concern to protect the right to do DNA contained in
U.S v. Sczubelek, 402 F.3d 175, DNA Technology Act (HR 3214): a federal
statute which gives right to DNA petition in support of claim of innocence,
the court stated, “In sum, we hold that, for purposes of applying the rule
announced in Lindh, a case does not become ending until an actual
application for habeas corpus relief is filed in federal court. Because
Respondent’s federal habeas corpus application was not filed until after
AEDPA effective date that application is subject to AEDPA amendments.
Accordingly, we reverse the (Circuit) judgment”. Conclusively, like the
Respondent, federal Judge Haber was erroneous to deny Petitioner’s Motion
to Conduct DNA by allowing the AEDPA law to prevail over facts proving
factual innocence, let alone, a wrongful conviction. Note: Petitioner’s
first attempt to do DNA during direct appeal was denied because PCR
technology was not available in 1991 on “cells stained by preservatives” (by
hospital authorities). “At some point in the judicial process, even a
person convicted of heinous crimes deserves a rigorous and complete
5

analysis of his constitutional claims. If no state court provides such
analysis, this task falls to the federal courts.” (Bell v. Jarvis 236 F.3d at
186. 4th Cir. 2000).
5. Relief should be granted because the state’s
decisions were ‘legally and factually unreasonable”
since founded upon grossly inaccurate information.
Historically, every response to Petitioner’s pleadings contains excerpts
from the opinion4 authored by ex-Chief Justice Margaret Workman, who is still
on the bench, a well-known strong advocate of women’s and children’s rights.
She was the only Justice who voted against Petitioner to earn the 3-2
majority. How? By Administrative Law, she automatically acquired the votes
of two county court Judges who sat on ‘temporary assignments’, to gain
the majority.

Her rendition of the facts was rather selective, partial,

misleading; and contrary to the newly discovered evidences.

Good laws

come from only good facts: not vice-versa. Petitioner hereby submits
pertinent facts that were omitted from her opinion; and based on newly
discovered Brady materials, her opinions are significantly faulty.
(a) While it is true that Ms. Fox Tieard noise’ coming for the victim’s (Ms.
Corker) room, the record is dear that the ‘moaning and groaning’ was a result
from continuous ‘pains’ the patient was experiencing after she ‘ran away from
a man named Ted’...who caused her ‘to have pains’ and made her ‘pregnant’.
(Medical records hidden from trial) The room was not ‘dark’ as one nurse
testified.

Ms. Fox (Nurse Supervisor) testified that ‘there was enough

light.. .you could see in the room.... there were other lights coming in the room’.
When Petitioner walked in the dark room, he turned on the over-head fights
but Ms. Corker complained the fights ‘were painful’ to her eyes which was the
reason Petitioner turned them back off and depended on side fights and bath
room to complete his doctored-scheduled phlebotomy.
4 Azeez v Man gum, 465 SE 2nd 163 (1995), Newly discovered evidences should make this case obsolete.
6

(b) It is true that Petitioner was ‘trying to get some blood’. That is
because it was ‘ordered by a doctor to be drawn at that specific time’, and there
were twelve other patients’ blood scheduled to be drawn simultaneously.
(Medical records hidden from trial). The reason Ms. Corker’s ‘gown was pulled
up to her waist, and her pajama pants were untied and slid down to her hip
fine’ was because that was the only way to do a ‘femoral stick’; that is exposing
and puncturing the femoral vein in her groin. Petitioner had performed many
such complication-free procedures, even in the Emergency Room as a Medical
Intern when the veins on a patient’s arm (as Ms. Corker’s) were unsuitable or
difficult to palpate; and especially when the need for blood is urgent.
Undoubtedly, Ms. Corker’s mistook Petitioner’s fingers in her groin as a
‘wingding’: a coached word she used. She never told the jury what she meant
by wingding. The jury was left to speculate it meant a penis.
(c) Expectedly, the opinion did not mention what Ms. Fox heard when
she entered the room with Ms. Phillips who testified incriminatingly and
untruthfully that Ms. Corker was yelling, “He stuck his wingding in me....
don’t let him hurt me again”. In square contrast, the record (T.T page 218) is
clear that Ms. Fox stated, “She (Ms. Corker) didn’t say anything ...I did not
hear anything she said.... No, I don’t recall her making any statement
like ‘He stuck his wingding in me”’.
(d) Nurse Geisiking testified, “I thought I saw what looked like sperm
on the pubic hair”. Although such statement was objectionable, misleading
and prejudicial, the record (hidden from trial) established that Ms. Corker had
a chronic ‘vaginal discharge’, a foul-smelling infection noticeable when
Petitioner entered the room. Even the E.R. physician (Dr. Slack) wrote in his
(exculpatory) findings that Ms. Corker had ‘dried-up’ vaginal discharge—
as “normal—non-remarkable” which tested negative for sperm by the
West Virginia State Crime Lab. Petitioner was severely prejudiced since he
was unable to obtain that exculpatory report and expert witness (CIB forensic
serologist) to discredit Ms. Philips’ swab and slides below.
7

(e) While it is untrue that Ms. Phillips obtained a vaginal swab on “her
own initiative’, it is also illegal and violative to do so since it should have
been done by a personnel authorized and qualified to perform such
forensic task. Petitioner reiterates here for the record that Ms. Phillips,
before she collected the swab, called Ms. Corker’s physician (Dr. Hassan) for
permission to do so. The record is clear that Dr. Hassan refused her, and
specifically directed Ms. Corker “be taken to the Emergency Room for
examination’. Amazingly, on the Lab Collection slip (Evidence submitted by
the prosecution), Ms. Phillips wrote Dr. Hassan’s name as the “Ordering
Physician” when Dr. Hassan never ordered a swab sample. Conclusively. Ms.
Phillins deliberately disobeyed Dr. Hassan directives, and deliberately
violated Patients Bill of Right bv obtaining the swab from someone without
the awareness of anyone. Hence, Ms. Phillips (who hated Petitioner for untold
reasons, one being a scab when Petitioner crossed a picketed line during a
labor strike and took a job in the lab where three of Mr. Phillips’ friends worked
and walked off from) obtained a swab from an unknown source as
proven by the acid phosphatase test.
(f) Justice Workman claimed that Dr. Rasheed (Pathologist) ‘conducted
analysis’ on the swab. This is also faulty fact-finding. The record is clear Dr.
Rasheed testified that she when ‘walked in the hospital the next morning’ she
was ‘given two slides’...not the swab. She only looked (microscopically) at
slides and identified sperms cells, as pre-written on a Cytology Report she
signed. Later during her deposition, she contradicted herself and said she
‘made the slides’. It was deceitfully and deliberately done to cover up the
mishandling of forensic specimen by unqualified hospital staff. She realized
that such forensic specimen should have been collected, procedurally stored,
and analyzed by her. Chain of custody is a major issue in this case that was
not fully developed because hospital authorities refused inspection of policies
regarding collection, storage, handling, transportation, analysis, custody, etc
of Forensic Specimens. Unequivocally, Dr. Rasheed did not conduct any
8

analysis on the swab. The acid phosphatase test was done by an
independent lab, and Lazenby deliberately withheld the analyzer.
(g) Justice Workman also stated, Dr. Rasheed ‘could not testify based
on the tests conducted exactly when sexual intercourse occurred;’ which
constitutes the most egregious error in her findings. The record is
conspicuously clear that Dr. Rasheed made a determination based upon the
acid phosphatase amount (2270) demonstrating ‘sexual intercourse
occurred between five or six hours before the swab was collected.’ This
evidence (report) and her deposition testimony were “omitted” by Judge
Canterbury who conspiratorially suggested to go to his chambers (away from
the jury). Judge Canterbury knew that the result exculpated the Petitioner
since it was established that Petitioner was not around the scene during
those times. The record is dear that Petitioner attempted his phlebotomy chore
approximately 15 minutes before the swab was collected; again, permissively
by

an

unauthorized

nurse,

Conclusively,

the

acid

phosphatase

determination, is Brady and alibi material that exculpates Petitioner.
Additionally, the opinion did not mention that Ms. Corker told an all-white
jury, after she looked directly at Petitioner during trial and said, “1 never saw
him before...!don’t remember anything that happened to me”.
(h) On the matter surrounding the CEB newly-discovered rape kit
negative report, the Respondent daimed that the ‘stipulation was read to the
jury’. This is purely false. Petitioner never heard, never consulted, never
agreed and never “entered into stipulation’’ as allegedly offered by prosecutor
(Lazenby)—whose intention was to avoid the effect of a Police Officer
(Serologist Fred Zain) from the CIB Lab to come to trial, with the actual report,
with the entire Malicious Market Rape kit contents (containing analyzed blood
samples, vaginal and rectal swab and slides, hair samples, pajamas, etc.) to
testify on behalf of the Petitioner. Mere mentioning the 'negative result’ by a
prosecutor was not considered evidence as instructed by the judge, as it was
also weightless compared to actual the CIB Lab report, the analyzed rape kit
9

contents, and testimony of an expert forensic scientist. Note here that a ‘CIB
Representative’; like Dr. Slack and Don Lilly (Evidence Officer)5 was listed on
the Prosecution Witness List; all of whom did not show up. or rather, were not
called by the prosecutor or defense counsel. Secondly, conversation regarding
the rape kit matter was held at bench conference requested by the
prosecutor where he told the judge, “Your Honor, I believe the stipulation
would he that there were some types of examination made in Charleston and
there were negative results’. (TT page 381). How did he know the results were
“negative”? This was the first time Petitioner and his Public Defender lawyer
were made aware of the ‘negative’ results. How could it be a stipulation when
it was unheard of, when no hearing was conducted prior to trial, when it
was never agreed upon, or allowed to be entered? Furthermore, when trial
Judge asked, “Does the jury understand that the parties have stipulated
that this evidence that was sent to the CIB Lab and the result of the test
performed was negative?’, neither defense counsel nor the prosecutor
answered. Justice Workman was unequivocally wrong to state, “Petitioner got
the benefit of the stipulation”. And if that is true, why the guilty verdict?
(i) When trial Judge heard that the rape kit was negative (for the first
time at bench), he conspiratorially and quickly called for the ‘next witness’
thus preventing further examination of the Arresting Officer (Cedric
Robertson) by telling him, “You may go Cedric”. Recusing Cedric Robertson
was harmful to defense since it was known that Mr. Robertson (perjuriously)
swore in his Warrant For Arrest, ‘Laboratory testes including a rake kit
examination were conducted on the patient and the results were ‘positive* for
sexual intercourse”. (Appendix A). Clarification was needed, but sadly, defense
counsel did not remember the content of the Arrest Complaint. Those sworn
statements; which squarely contradicted the true and actual results, amounted
5 The Prosecutor told the trial Judge, “I never received the (CIB) report” That was deliberate fraud
because nine (10) years after conviction Petitioner acquired a statement through a civil action. Don
Lilly, the Evidence Officer declared, “The results (report dated March 19, 1987) were sent to the
prosecuting attorney". This irrefutable Brady issue was never considered by the Respondent.
10

to a viable claim of ‘false arrest’ the Respondent repeatedly ignored. It is also
relevant to state here that habeas corpus counsel (Kristen L. Keller) who
represented the Respondents at W.V. Supreme Court level during oral
arguments told the court that the ‘victim’s underwear was found on the
floor’. Clearly, this also is prosecutorial misconduct of the highest nature
because not only Ms. Corker’s underwear was never mentioned during the
trial, Ms. Corker did not have any underwear on, and the record is clear on
this matter.
It is extremely important to note also that the Rake Kit was in the
Beckley City Police Department Locker Room unanalyzed (waiting to be sent
to Charleston CIB Lah for testing) when Officer Robertson obtained the
Warrant and arrested the Petitioner using criminal perjuries. It now becomes
clear that Petitioner’s conviction was predicated upon harmful lies throughout
the entire case: at the hospital, during arrest, during indictment, during
deposition of Dr. Rasheed. during pre-trial discoveries, and especially at trial.
Now that this Supreme Court is supplied with all of the facts, the
constitutional claims (Brady, Strickland, Franks, Bagley, Batson) this pleading
indeed states several claims upon which relief can be granted. Since Petitioner
had made a reasonable attempt to do DNA in 1991; even before commencing
habeas appeal, but was unsuccessful due to poor advancement in DNA
technology; then stringently and indefatigably pursued other legal claims as
they became available, Petitioner therefore has demonstrated a substantial
showing that the matter can be constitutionally entertained by this Court by
invoking several federal provisions that allowed hundreds of inmates to prove
their innocence despite the constraints and burden under A.E.D.P.A.
Petitioner does not need to elaborate on his Strickland claim the fact
that he had only one witness, his fiance, at trial. The same for his Brady claim
knowing that 4 expert witnesses and 4 exculpatory reports did not make it to
trial; one such report (acid phosphatase) provides an iron-dad alibi defense.

ll

UNANSWERED QUESTIONS6

1- Why were the entire contents of the rape kit that was
exoertlv obtained bv a qualified doctor, and
scientifically analyzed by the police crime lab tested
totally negative, while the unlawfully obtained swab
collected bv an unqualified nnrse with rejected
permission to do so. tested bv hospital authorities and
yielded partially positive?
2. Did the Arresting Officer commit perjury when he
swore under oath before the Magistrate that the
untested rape kit results were ‘positive* for sexnal
intercourse?
3. Did the Arresting Officer also willfully commit perjury
when he swore under oath that the ER doctor Slack’s
examination report was also ‘positive* for sexual
intercourse knowing that the actual report he obtained
proved totally opposite?
4. Did the Arresting Officer committed perjury when he
testified before the errand jury that both the rape kit
and Dr. Slack’s ER examination for rape were both
positive for sexual intercourse?
5. In addition to Ineffective Assistance of Counsel, does
Petitioner present a solid claim of Gross Prosecutorial
Misconduct for concealing the rape kit and ER
examination reports (both known to be existed) and
also, for deliberately failing to call ER Doctor and the
rape kit Serologist as seen in his Witness List?
6. Was Petitioner deprived of another critical Brady and
Alibi evidence when the Judge omitted the acid
phosphatase results?
6 If this Court requires the Respondent to file a response or answer any of the following questions,
the answer will be YES to all. Undeniably so because there is no logical or alternative explanation
to support otherwise.
12

7. Did the trial Judge acted unfairly and prejudicially to
allow introduction of the sperm cells results, blit omit
the acid phosphatase result knowing that both came
from the same swab?
8. Knowing that Petitioner is colored, was it gross and
intentional misconduct when the Prosecutor struck
the only colored inror from the panel knowing the
reason for doing so was unsupported and clearly false?
9. Do the above questions, and dozens more that could be
raised herein, support a case of exceptional
circumstance not only for review and oral argument.
but also to grant relief, as aided fov the Appendices?
CONCLUSION AND RELIEF
Azeez believes this Court should be convinced that although his (1987)
conviction occurred some nine (9) years prior to the enactment of the 1996
A.E.D.P.A. and SORA. All timely requirements were satisfied by continuous
filing of numerous post-conviction pleadings-—which include two successive
habeas7, DNA request, and many collateral pleadings such as civil actions,
mandamuses: one of which the Respondent’s pleaded with the State’s highest
court to have the case remanded after the first scientific exculpatory evidence
(CIB Rape Kit report concealed) was revealed by the FBI eight (8) years after
conviction—he is entitled to relief. Additionally, knowing the Respondent
issued a Mandate, as was wrongfully done by the court of conviction, Petitioner
will forever be barred from returning to the Respondent’s courts for any relief
even though SORA (Megan) laws permit him to do so.
Systemic injustice

will

go

uncorrected if this

Court

adopt

constitutionally impermissible findings of the Respondent; especially when
7 By then, the Court was flooded with appeals, and unwillingly, did not reopen the case or revisit
its published opinions, in Azeez v. Maneum, 463 SE 2nd Ed. 1995. Unfortunately, all pro se
successive petitions were denied.
13

actual innocence is a claim and factually proven. This court needs to take a
hard look at Petitioner's hardships surviving being colored, and more so, the
systemic injustice being a Muslim and a foreigner with criminal record exposed
to law enforcement thus making it easy to ignore and violate his constitutional
civil rights.
This case has equal magnitude as a capital case and should be given
equal attention since Petitioner might as well be dead knowing he will have
to register -with law enforcement-as a ‘violent sex offender’ for the rest of his
natural life wherever he wishes to live, notifying police, schools, jobs (if ever
an employer is willing to hire a sex offender), neighbors and community
organizations, making it difficult to survive. Many lives were lost
retaliatorily because people have been, and are being, treated by law
enforcement wrongfully and unfairly. Petitioner seeks to end this injustice
legally, his last resort. Petitioner filed a Criminal Complaint 8 with the FBI
and is still waiting for an answer. Black and Brown Lives Matter.
Finally, this Court should uphold the legacy of the late Justice Ruth
Bader Ginsburg who shaped modem American life with progressive opinions
by saying, “Real change, enduring change, happens one at a time”. She proved
over and over again that race-and-sex-based discrimination harms not just
women, but men and families. Inmate Perkins, supra, convinced this Court
that he was factually innocent. Like Perkins, Azeez should reap the same
benefits of this Court’s decision, putting politics aside, and allow him to regain
the status of a free, decent, accomplished, and respected citizen he once was.
WHEREFORE, the Court should grant this Rehearing Petition.
Respectfully submitted,
, (BS, MT, MD, 2Lt US Army, NYPD)

See next page. The actual complaint consists of 31 pages filed since June 2020. No response.
14

To: The FBI. Charleston. West Virginia
(As directed by the DOJ)
VERIFIED CRIMINAL COMPLAINT
Rule 4.1(a) Federal Rules of Criminal Procedure
Crime Victims’ Rights Act of 1984 and 2004
JAMAL A. AZEEZ,
Complainant
v.
CEDRIC ROBERTSON (Police)
BRUCE K. LAZENBY (Prosecutor)
LARRY FRAIL (Prosecutor)
KRISTEN L. KELLER (Prosecutor)
DAVID COOK (Police)
JOHN HUTCHISON (Judge)
Defendants (Raleigh County Officials)
CLAIMS
18 U.S. Code Chapter 13 - CIVIL RIGHTS
§ 241 - Conspiracy against rights to punish
§ 242 - Deprivation of rights under color of law
§ 243 - Exclusion of jurors on account of race or color
18 U.S. Code Chapter 19 - CONSPIRACY (RICO)
§ 371 - Conspiracy to commit offense
18 U.S. Code Chapter 73 - OBSTRUCTION OF JUSTICE
§ 1503 - Influencing or injuring officer or juror generally
§ 1510 - Obstruction of criminal investigations
§ 1511 - Obstruction of State or local law enforcement
§ 1512 - Tampering with a witness, victim, or records
18 U.S. Code Chapter 79 - PERJURY9
§ 1621 - Perjury generally
§ 1622 - Subornation of perjury
§ 1623 — False declarations before grand jury or court

9 WV authorities know that if they reverse this conviction, they own Petitioner a life-time compensation as
a doctor who was prevented from practicing medicine since 1987-—which is the POLITICAL force to
ignore their wrongdoings and place it behind a back-burner since it is pursued pro se. Michael Flynn lied to
the FBI and got convicted. Why not Cedric Robertson et al? Also, like Petitioner, Isaac Wright Jr., who
was wrongfully convicted (and just Seed himself pro se after 7 years of unjust incarceration) is running to be
the mayor of New York City . Why not this pro se Petitioner? A small and poor state like West Virginia
will never do that for a pro se litigant.

15

l

CERTIFICATE OF COUNSEL
I, Jamal A. Azeez, Petitioner in the foregoing pleading, hereby certify that this
petition for rehearing is presented in good faith and not for delay, and that it is restricted
to the grounds; one of which support ‘exceptional circumstance’ being factually
innocent, as specified in Supreme Court Rule 44.2.
Respec'

ly submitted,

CERTIFICATE OF SERVICE
I, Jamal A. Azeez, Petitioner in the foregoing pleading, hereby certify that
Lindsey S. See (Counsel for Respondent) was served via email on this date: December
12th, 2020, with an exact copy.
Respeci

y submitted,

VERIFICATION OF COUNSEL
I, Jamal A. Azeez, Petitioner of the foregoing pleading, verify under penalty of
perjury, that the statements and supporting Appendices are true and correct to the best
of my knowledge.
Respectfully submitted,

o

si

